Office of Inspector General

                    General  



      Semiannual Report 

       to the Congress 

            Covering the Period 

    April 1, 2010—September 30, 2010





FEDERAL MARITIME COMMISSION 

                              FEDERAL MARITIME COMMISSION
                                   Washington, DC 20573


                                        October 29, 2010

Office of Inspector General



Dear Commissioners:

        The attached report is submitted in accordance with Section 5 of the Inspector General
Act of 1978, as amended. It summarizes the activities of the Office of Inspector General (OIG)
for the period April 1, 2010, to September 30, 2010. The Act requires that you transmit the
report to the appropriate Congressional committees within 30 days of receipt. Your transmittal
should also include any comments you consider appropriate and other statistical tables and
reports required by law.

        During this period we issued three audits/evaluations of Federal Maritime Commission
(FMC) programs or activities, and began three program evaluations and one audit. Also during
this period, the OIG received 35 complaints: we responded to five complaints and forwarded 21
complaints to the appropriate FMC program area for disposition. Nine complaints were
forwarded to other agency OIGs or programs with jurisdiction over the subject matter of the
complaint. The OIG opened no new investigations and referred no matters to prosecutorial
authorities during this period.

        In addition to these audit and investigative activities and outcomes, the OIG responded to
two congressional requests for information pertaining to OIG operations. We issued a fraud alert
on the office’s webpage after a preliminary investigation revealed that scam artists were using
indicia of an official nature, such as FMC letterhead, to perpetrate a scam. We also assisted
another federal OIG to hire an attorney, responded to a request for comments to the Office of
Special Counsel pertaining to Whistleblower retaliation, worked with agency program staff to
review internal controls over office procedures for processing license fee checks and commented
on Commission Orders on Privacy Act implementation.

        Although management and the OIG have reached agreement on implementation plans for
all open recommendations, we are concerned that two recommendations remain unimplemented
for 54 and 47 months. Management should do more to close these recommendations. I appreciate
management’s support and I look forward to working with you in our ongoing efforts to promote
economy and efficiency in agency programs.


                                                    Respectfully submitted,


                                                    /Adam R. Trzeciak/
                                                    Inspector General
                                                 TABLE OF CONTENTS


Transmittal Letter
 

EXECUTIVE SUMMARY ............................................................................................................ 1
 

BACKGROUND ............................................................................................................................ 1
 

AUDITS/EVALUATIONS............................................................................................................. 3
 

   Summary of Audits and Reviews Issued During the Current Period ......................................... 3
 
   Audits or Evaluations with Fieldwork Ongoing ......................................................................... 6
 

INVESTIGATIVE ACTIVITIES ................................................................................................... 7
 

OTHER OIG ACTIVITIES ............................................................................................................ 8
 

SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS .......................... 13
 

   TABLE I – Inspector General Issued Reports with Questioned Costs ..................................... 14
 
   TABLE II – Inspector General Issued Reports with Recommendations that Funds be Put to 

   Better Use.................................................................................................................................. 15
 
        Inspector General’s Semiannual Report to Congress


                                 EXECUTIVE SUMMARY 

       This Semiannual Report to the Congress summarizes the activities and accomplishments
of the Federal Maritime Commission (FMC or Commission), Office of Inspector General (OIG
or Office), for the period April 1, 2010 through September 30, 2010. During this period we
issued three audits/evaluations of FMC programs or activities, and began three program
evaluations and one audit.

       Also during this reporting period, the OIG received 35 complaints: we responded to five
complaints and forwarded 21 complaints to the appropriate FMC program area for disposition.
Nine complaints were forwarded to other agency OIGs or programs with jurisdiction over the
subject matter of the complaint. The OIG opened no new investigations and referred no matters
to prosecutorial authorities during this period.

       In addition to these audit and investigative activities and outcomes, the OIG responded to
two congressional requests for information pertaining to OIG operations, issued a fraud alert on
the office’s webpage after a preliminary investigation revealed that scam artists were using
down-loaded FMC letterhead to perpetrate a scam; assisted another federal OIG to hire an
attorney, responded to a request for comments to the Office of Special Counsel pertaining to
Whistleblower retaliation, worked with agency program staff to review internal controls over
office procedures for processing license fee checks, and commented on a Commission Order on
Privacy Act implementation.


                                       BACKGROUND 

       The FMC is an independent agency responsible for the regulation of ocean-borne
transportation in the foreign commerce of the United States. The principal statutes or statutory
provisions administered by the Commission are the Shipping Act of 1984, as amended by the
Ocean Shipping Reform Act of 1998; the Foreign Shipping Practices Act of 1988; and Section
19 of the Merchant Marine Act of 1920.


       April 1, 2010 - September 30, 2010                                        Page 1
        Inspector General’s Semiannual Report to Congress

       The FMC is headed by five Commissioners nominated by the President and confirmed by
the Senate, each serving five-year terms. For Fiscal Year (FY) 2010, the Commission was
appropriated $24.1 million to fund 129 full-time equivalent positions.

       Although the majority of the Commission’s personnel are located in Washington, D.C., it
also maintains a presence in Los Angeles, Seattle, New York, New Orleans, Houston and South
Florida, through area representatives who serve the major ports and transportation centers within
their respective geographic areas. In addition, one at-large area representative operates from
Washington, D.C.

       The FMC/OIG was established in 1989 as required by the Inspector General Act of 1978,
as amended (5 U.S.C. app.). The OIG is an independent audit and investigative unit headed by
an Inspector General (IG) who reports directly to the Commissioners of the FMC. To aid the
FMC in accomplishing its mission, the OIG was provided three full-time staff and a budget of
$762,270 for FY 2010.

       The OIG is responsible for conducting audits and investigations relating to the programs
and operations of the FMC. Audits are conducted for the purpose of finding and preventing
fraud, waste and abuse, and promoting economy, efficiency and effectiveness within the agency.
OIG investigations seek out facts related to allegations of wrongdoing on the part of FMC
employees and individuals, or entities having contracts with, or obtaining benefits from, the
agency. The Inspector General Act provides that the OIG shall have access to all agency records
and may subpoena records from entities outside of the agency in connection with an audit or
investigation.

       The IG is required by law to prepare a report summarizing OIG audits and investigations
during the immediately preceding six-month period. The report is sent to the FMC Chairman
and Commissioners, the President of the Senate, the Speaker of the House and FMC’s
appropriating and authorizing committees. This dual reporting requirement facilitates and helps
to ensure the independence of the Office.


       April 1, 2010 - September 30, 2010                                         Page 2
        Inspector General’s Semiannual Report to Congress

                                 AUDITS/EVALUATIONS 

       During this semiannual period, the OIG issued three program evaluations pertaining to (i)
best practices for time and attendance (T&A) implementation, (ii) the accuracy of calculations
used by the agency to establish user fees for various services and (iii) user satisfaction with the
agency’s Helpdesk services. We also began the annual financial statement audit, the annual
evaluation of information security, a review of Privacy Act implementation and a program
evaluation of the Office of Consumer Affairs and Dispute Resolution Services.

                                   Issued Audits and Reviews

Audit Report Number                                           Subject of Audit

       OR10-02                                Best Practices for Time and Attendance
                                              Implementation

       OR10-03                                Review of FMC’s User Fee Calculations

       OR10-04                                User Satisfaction Survey of the Office of
                                              Information Technology Helpdesk



             Summary of Audits and Reviews Issued During the Current Period

       In OR10-02, Best Practices for Time and Attendance Implementation, the objective
was to consolidate best practices observed in six FMC bureaus / offices. During previous audits,
we noted similarities and differences among the bureaus / offices. Some T&A practices seemed
to us to work better (i.e., stronger controls, higher compliance rates) than others. Based on these
audits, we identified “best practices” to help the agency to comply with T&A requirements and
to enhance the efficiency and effectiveness of agency payroll practices.

       While we found both similarities and differences among the practices used in FMC
bureaus and offices to administer payroll, the most noticeable, and arguably the most inefficient
process, was the lack of uniform processes to monitor employee time and attendance among the
bureaus / offices. With that in mind, the OIG developed a list of 12 best practices to assist the
       April 1, 2010 - September 30, 2010                                           Page 3
        Inspector General’s Semiannual Report to Congress

agency to standardize its T&A practices. FMC managers provided the OIG with an action plan
to address the vulnerabilities we identified in each of the bureaus and offices audited.

       In OR10-03, Review of FMC’s User Fee Calculations, the OIG analyzed the
methodology used by the agency to set user fees for activities that convey special benefits to
recipients beyond those accruing to the general public. Guidance for establishing such fees is
contained in Office of Management and Budget (OMB) Circular A-25, User Charges. The
Circular requires user charges to be sufficient to recover the government’s full cost. Full cost
includes all direct and indirect costs to any part of the federal government of providing a good or
service. These costs include, but are not limited to, an appropriate share of: (i) direct and indirect
personnel costs, including salaries and fringe benefits, such as medical insurance and retirement;
and (ii) physical overhead, consulting and other indirect costs including material and supply
costs, utilities, insurance, travel and rents or imputed rents on land, buildings or equipment.

       The OIG determined that the agency followed a process that incorrectly calculated its
user fees for various mission-related services, resulting in user fees that understated the agency’s
costs to provide these services. The OIG recommended that the agency either (i) establish user
charges that reflect the full cost of the activity provided, as directed in Generally Accepted
Accounting Principles and Cost Accounting Standards, or (ii) with the approval of the OMB, set
fees below the full cost if the agency determines that recouping full costs would be a financial
burden on the industry or the public.


       In its response to the audit, management agreed to re-evaluate existing user fees and
initiate a process to determine the full cost of services for which the agency assesses user fees, in
accordance with the OMB requirements and applicable federal financial accounting standards.
Once those costs are determined, management will prepare a proposed rule for Commission
approval, with the goal of issuing a final rule by December 31, 2010.




       April 1, 2010 - September 30, 2010                                             Page 4
         Inspector General’s Semiannual Report to Congress

        In OR10-04, User Satisfaction Survey of the Office of Information Technology
Helpdesk, the objectives were to determine whether (i) controls are in place to ensure that all
assistance requests made by customers (e.g., agency staff) are documented, assigned and
corrected in a timely manner; (ii) customers are notified of progress made to address their
requests; and (iii) customer requests are timely cleared. To address the objectives, the OIG sent
a data collection instrument to agency staff, interviewed Office of Information Technology (OIT)
personnel and reviewed service call tracking summary reports.

        The Helpdesk received favorable marks from staff responding to the OIG questionnaire.
Almost 70 percent (37 of 53 respondents) said that they were extremely satisfied or very satisfied
with the “overall experience.” Eighty-one (81) percent indicated that their last service request
was resolved to their satisfaction. Respondents also provided helpful suggestions to enhance
Helpdesk performance. The most frequent suggestions centered on the need for follow up by
Helpdesk staff to ensure problems are corrected and keeping staff “in the loop” when repairs or
“fixes” are spread over several hours or days.

        While the results generally speak well of the service the Helpdesk provides, OIG
observations and analysis suggest that there is still room for improvement. The Helpdesk has no
policies and procedures for technicians to use, for example, when assigning priority levels to
calls for assistance. (The priority assigned often determines the response time.) Consequently,
the priority assigned to a service call is based on the technician’s own assessment as opposed to
objective criteria. We found several instances where identical problems (e.g., “printer down” or
“unable to log on to pc”) were assigned different priority levels, depending on the technician
taking the call.

        We had several concerns with the tracking system used to assign technicians and monitor
outcomes. Most notably, we identified blocks of time where no calls were logged in and specific
requests that were missing from the log. Without complete information on the number of service
requests, the nature of the request, and the time required to respond to the request, the OIT
director has an incomplete picture of Helpdesk performance.

        April 1, 2010 - September 30, 2010                                        Page 5
        Inspector General’s Semiannual Report to Congress

       Finally, the OIG noted that the tracking software used by the Helpdesk has unused
features that could enhance OIT oversight of Helpdesk operations. We believe that staff should
be trained in Helpdesk operations and the tracking software currently in use. By using more
available features, customers could, for example, enter their service requests into the tracking
system and track the status of their service requests, call escalation would occur automatically
based on a predetermined time interval and trend analysis reports could be produced showing the
kinds of problems staff experienced to determine whether systemic problems exist.

       The OIT director told the OIG that he made policy changes in January 2010 to enhance
service operations. While the impact of these changes will no doubt take time to materialize, the
OIG made seven recommendations to enhance service efficiency and effectiveness in a shorter
timeframe.

                     Audits or Evaluations with Fieldwork Ongoing 

       The OIG began three program evaluations and one audit during the reporting period.

       In A11-01, Independent Evaluation Report of FMC’s Implementation of FISMA for
FY 2010, the objectives are to (1) evaluate the agency’s information system & security program
and assess compliance with FISMA and related information security policies, procedures,
standards and guidelines, (2) perform a vulnerability scan from an address outside FMC to
identify vulnerabilities associated with hardware and software installed facing the Internet (open
ports, missing patches, default or missing passwords, etc.), (3) evaluate responses to prior
recommendations, and (4) review agency activities associated with its responsibilities under the
Privacy Act.


       In OR11-01, Program Evaluation of the Office of Consumer Affairs and Dispute
Resolution Services, the review objectives are to (i) document CADRS’ mediation activities,
including training, staff development and certifications; (ii) identify users of mediation services
and how CADRS promotes its mediation services to consumers and the shipping industry; (iii)
evaluate how CADRS tracks complaints and reports outcomes for its consumer affairs mission;

       April 1, 2010 - September 30, 2010                                          Page 6
        Inspector General’s Semiannual Report to Congress

and (iv) assess the relationship between CADRS’ dual consumer affairs and alternative dispute
resolution missions. The evaluation was initially planned to begin in March 2010. However, per
management’s request, the OIG delayed fieldwork until July 2010.


       The objective of the OIG’s annual financial statement audit (A11-02) is to opine on
whether the FMC’s FY 2010 financial statements follow Generally Accepted Accounting
Principles and present fairly the financial position of the agency. The OIG will also review
internal control over financial reporting and agency compliance with laws and regulations. The
statements to be audited are the Balance Sheets as of September 30, 2010 and 2009, and the
related Statements of Net Cost, Statements of Changes in Net Position, Statements of Budgetary
Resources, Statements of Financing and Statements of Custodial Activity. This will be the
seventh consecutive year that the FMC prepared financial statements for audit.



                           INVESTIGATIVE ACTIVITIES

       The Inspector General Act of 1978, as amended, provides that the IG may receive and
investigate complaints or information concerning possible allegations of fraud, waste and abuse
occurring within FMC programs and operations. Matters of possible wrongdoing are referred to
the OIG in the form of allegations or complaints from a variety of sources, including FMC
employees, other government agencies and the general public. During this reporting period, the
OIG received 35 complaints.      We responded to five of the complaints and forwarded 21
complaints to the appropriate FMC program area for disposition.          Nine complaints were
forwarded to other agency OIGs or programs with jurisdiction over the subject matter of the
complaint.




       April 1, 2010 - September 30, 2010                                        Page 7
        Inspector General’s Semiannual Report to Congress

                                OTHER OIG ACTIVITIES

                                      Review of Legislation

        As required by the Inspector General Act of 1978, as amended, the Office of Inspector
General routinely reviews proposed legislation and regulations. The purpose of these reviews is
to assess whether the proposed legislation or regulation (1) impacts the economy and efficiency
of FMC programs and operations, and (2) contains adequate internal controls to prevent and
detect fraud and abuse. During this period, the OIG reviewed various proposals to provide
inspectors general with testimonial subpoena authority, to provide ombuds services to
whistleblowers under the Whistleblower Protection Enforcement Act of 2009, and to improve
public access to federal information, pursuant to the Transparency in Government Act.


        The OIG also reviewed the agency’s regulations, which were amended to reflect the
agency’s January 31, 2010 reorganization, and suggested revisions to reflect the appropriate
reporting relationship between the inspector general and the agency.


             Council of Inspectors General on Integrity and Efficiency Activities

        The Council of Inspectors General on Integrity and Efficiency (CIGIE) was established
by law as an independent entity by the Inspector General Reform Act of 2008 (P.L. 110-409) to:

   •	   address integrity, economy and effectiveness issues that transcend individual government
        agencies; and
   •	   increase the professionalism and effectiveness of personnel by developing policies,
        standards, and approaches to aid in the establishment of a well-trained and highly skilled
        workforce in the Offices of the Inspectors General.

        The CIGIE is comprised of all inspectors general whose offices are established under
section 2 or section 8G of the Inspector General Act of 1978, i.e., those that are Presidentially-
appointed / Senate confirmed and those that are appointed by agency heads (designated federal
entities), respectively. The IG is a member of CIGIE’s Legislation and Integrity Committees.
        April 1, 2010 - September 30, 2010	                                       Page 8
         Inspector General’s Semiannual Report to Congress

The Legislation Committee is a centralized point-of-contact and liaison for CIGIE to ensure
regular and ongoing communication with Congressional committees, committee staff and the
Government Accountability Office regarding issues of common interest, and provides input to,
and receives feedback from, the Congress on legislation affecting the IG community as a whole.
The Integrity Committee is charged with receiving, reviewing, and referring for investigation, where
appropriate, allegations of administrative (non-criminal) misconduct against inspectors general and
designated senior staff members of the OIG. The Committee's membership consists of the Federal
Bureau of Investigation's representative to the CIGIE, who serves as its Chairperson; the Special
Counsel of the Office of Special Counsel, the Director of the Office of Government Ethics; and four
federal inspectors general.


        The Assistant Inspector General continues to participate in Federal Audit Executive
Council (FAEC) activities. The FAEC is comprised of senior audit staff from agency OIGs that
discuss and coordinate issues affecting the federal audit community - with special emphasis on
audit policy and operations of interest to FAEC members. The OIG’s Counsel participates in the
Council of Counsels to the Inspector General (CCIG) activities. The CCIG consists of senior
counsel from agency OIGs who discuss various legal issues that affect the OIG community.


        The OIG also participated in a CIGIE project to study OIG hotlines. The goal of the
study was to provide a basis for an internal CIGIE dialogue regarding hotline and complaint
intake, offer recommendations and suggested actions for OIG Hotlines and provide suggestions
for the IG Academy Hotline Operator Training Course. The effort resulted in a draft report for
best practices, which was adopted by CIGIE to advance to the next phase of OIG hotline review.


        Additionally, the OIG learned of a scheme that used the name of the FMC to perpetuate a
scam on consumers. Fraudulent e-mails and correspondence, designed to look like the FMC’s
authentic Web page, informed unsuspecting consumers that they had won a lottery or
sweepstakes. However, the “winners” needed to wire money or send a check for an amount
between $1,000 USD and $10,000 USD before the winnings could be conveyed to settle
accounts with the FMC. To protect potential victims from falling prey to this deception, OIG
        April 1, 2010 - September 30, 2010                                         Page 9
        Inspector General’s Semiannual Report to Congress

prepared a scam alert to warn about the fraudulent scheme. The scam alert was posted on both
the FMC and OIG websites. Based in part on the alert, the OIG received numerous inquiries
from potential victims about the authenticity of the scam pitch. In many instances, we were able
to thwart the scammer’s intent and advised consumers not to fall prey.

       Also, during the reporting period, pursuant to the Reform Act, OIG renewed an
Memorandum of Understanding with the Architect of the Capitol OIG to provide legal services
on a reimbursable basis.

                                         Peer Review Activities

       Federal Offices of Inspector General are required by the IG Act to have a peer review
performed on their organization once every three years. These reviews are to be performed only
by federal auditors. A committee of the CIGIE schedules the review to ensure that resources are
available to perform them and that OIGs do not conduct reciprocal reviews.

       The objectives of a peer review are to determine, for the audit function, whether an
effective quality control system has been established in the office and if policies, procedures and
applicable government auditing standards are being followed.

       On July 21, 2010, the Dodd-Frank Wall Street Reform and Consumer Protection Act,
Public Law 111-203, was signed into law. Section 989(C) of the Act requires federal offices of
inspector general to include in their semiannual reports to Congress, an appendix containing the
results of any peer review conducted by another OIG during the reporting period, or if no peer
review was conducted within that reporting period, a statement identifying the date of the last
peer review conducted by another OIG. The most recent peer review of the FMC OIG was
issued on March 12, 2010, outside of this reporting period. There are no unimplemented
recommendations from this or any previous peer review. The peer review opinion is available
on the OIG’s webpage at www.fmc.gov/bureaus_offices/office_of_inspector_general.aspx.




       April 1, 2010 - September 30, 2010                                          Page 10
        Inspector General’s Semiannual Report to Congress

                                  Significant Management Decisions

       If the IG disagrees with any significant management decision, Section 5(a)(12) of the
Inspector General Act requires that such disagreement be reported in the semiannual report.
Further, Section 5(a)(11) of the Act requires that any decision by management to change its
response to a significant resolved audit finding must also be disclosed in the semiannual report.

       For this reporting period, there were no significant management decisions made on which
the IG disagreed, and management did not revise an earlier decision on an OIG audit
recommendation.

                                         Access to Information

       The IG is to be provided with ready access to all agency records, information or
assistance when conducting an investigation or audit. Section 6(b)(2) of the IG Act requires the
IG to report to the agency head, without delay, if the IG believes that access to required
information, records or assistance has been unreasonably refused, or otherwise has not been
provided. A summary of each report submitted to the agency head in compliance with Section
6(b)(2) must be provided in the semiannual report in accordance with Section 5(a)(5) of the Act.

       During the reporting period, the OIG did not encounter any difficulties in obtaining
assistance or access to agency records. Consequently, no report was issued by the IG to the
agency head in accordance with Section 6(b)(2) of the IG Act.

                                            Audit Resolution

       As of the end of this reporting period, all OIG audit recommendations for reports issued
in prior periods have been resolved. That is, management and the OIG have reached agreement
on what actions need to be taken. As noted below, six of these recommendations remain open
past one year.




       April 1, 2010 - September 30, 2010                                          Page 11
         Inspector General’s Semiannual Report to Congress

                                                Report       Open        Elapsed Months
              Short Title                     Issue Date     Rec.(s)     (as of 9/30/10)

   1.    Bureau T&A Practices                  6/30/09        4               15
   2.    Privacy & Data Protection             9/22/08        5, 7            24
   3.    FISMA Evaluation for 2008             9/22/08        9               24
   4.    FISMA Evaluation for 2006             10/2/06        4               47
   5.    Accuracy of Enforcement Databases     3/31/06        3               54

         The oldest recommendation (54 months) involves “Pay.Gov,” a payment system
available to all federal agencies that enables agency customers to make secure electronic
payments to the agency directly from their bank account or by credit/debit card. The FMC still
processes the majority of its transactions with customers, including regulated entities, by bank
check.    In its most recent recommendation update, management told the OIG that it will
implement Pay.Gov when it implements other information technology modernization projects.
Management estimates that this will occur by March 2011.

                               Contacting the Office of Inspector General

         Employees and the public are encouraged to contact the OIG regarding any incidents of
possible waste, fraud or abuse occurring within FMC programs and operations.          The OIG
telephone number is (202) 523-5863. To report suspected wrongdoing, employees or the public
may call the OIG Hotline on (202) 523-5865. A confidential or anonymous message can be left
24 hours a day. Complaints or allegations of fraud, waste or abuse can also be emailed directly
to the Inspector General at oig@fmc.gov or to https://www2.fmc.gov/oigcomplaints/ (if the
complainant wishes to remain anonymous).




         April 1, 2010 - September 30, 2010                                      Page 12
        Inspector General’s Semiannual Report to Congress

SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS
 

   IG Act
  Reference                      Reporting Requirement                          Page(s)

Section 4(a)(2)           Review of legislation and regulations                    8

Section 5(a)(1)           Significant problems, abuses and deficiencies          None

Section 5(a)(3)           Prior significant recommendations on which              11
                          corrective actions have not been made

Section 5(a)(4)           Matters referred to prosecutive authorities              7

Section 5(a)(5)           Summary of instances where information was              11
                          refused

Section 5(a)(6)           List of audit reports by subject matter                  3

Section 5(a)(7)           Summary of each particularly significant report          3

Section 5(a)(8)           Statistical tables showing number of reports and        14
                          dollar value of questioned costs

Section 5(a)(9)           Statistical tables showing number of reports and        15
                          dollar value of recommendations that funds be put
                          to better use

Section 5(a)(10)          Summary of each audit issued before this reporting     None
                          period for which no management decision was
                          made by the end of the reporting period

Section 5(a)(11)          Significant revised management decisions               None

Section 5(a)(12)          Significant management decisions with which the        None
                          inspector general disagrees




       April 1, 2010 - September 30, 2010                                      Page 13
          Inspector General’s Semiannual Report to Congress

                                               TABLE I
 
   INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS
 

                                                                   Dollar Value

                                                               Questioned   Unsupported
                                                      Number     Cost          Costs
A. For which no management decision has been
   made by the commencement of the reporting               0       0               0
   period

B. Which were issued during the reporting period           0       0               0

   Subtotal (A + B)                                        0       0               0

C. For which a management decision was made                0       0               0
   during the reporting period

   (i)      dollar value of disallowed costs               0       0               0

   (ii)     dollar value of costs not disallowed           0       0               0

D. For which no management decision has been               0       0               0
   made by the end of the reporting period

E. Reports for which no management decision                0       0               0
   was made within six months of issuance




          April 1, 2010 - September 30, 2010                                      Page 14
          Inspector General’s Semiannual Report to Congress

                                               TABLE II
 
  INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS 

              THAT FUNDS BE PUT TO BETTER USE
 


                                                              Number   Dollar Value

A. For which no management decision has been made               0           0
   by the commencement of the reporting period

B. Which were issued during the reporting period                0           0

   Subtotal (A +B)                                              0           0

C. For which a management decision was made during
   the reporting period                                         0           0

   (i)       dollar value of recommendations that were
             agreed to by management                            0           0

   (ii)      dollar value of recommendations that were          0           0
             not agreed to by management

D. For which no management decision has been made               0           0
   by the end of the reporting period

E. Reports for which no management decision was                 0           0
   made within six months of issuance




          April 1, 2010 - September 30, 2010                                 Page 15
          HOTLINE COMPLAINTS

The success of the OIG mission to prevent fraud, waste and abuse
 depends on the cooperation of FMC employees and the public.

A COMPLAINT CAN BE REPORTED BY CALLING OUR 24-HR DIRECT LINE


                             (202) 523-5865 

                                E-MAIL ADDRESS:

     https://www2.fmc.gov/oigcomplaints/
         TO PLACE A COMPLAINT IN WRITING PLEASE MAIL TO:

                Federal Maritime Commission
                Office of Inspector General
                Room 1054
                800 North Capitol Street, NW
                Washington, DC 20573
                To Be Opened By the IG Only

  THE INFORMATION YOU PROVIDE IS CONFIDENTIAL AND YOU CAN BE ANONYMOUS


          HOWEVER, CALLERS ARE ENCOURAGED TO ASSIST THE INSPECTOR GENERAL BY

    SUPPLYING INFORMATION AS TO HOW THEY MAY BE CONTACTED FOR ADDITIONAL INFORMATION

